<html>
<title> - ASSESSING FOSTER CARE AND FAMILY SERVICES IN THE DISTRICT OF COLUMBIA: CHALLENGES AND SOLUTIONS</title>
<body><pre>[Senate Hearing 111-572]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-572
 
                    ASSESSING FOSTER CARE AND FAMILY 
                      SERVICES IN THE DISTRICT OF 
                   COLUMBIA: CHALLENGES AND SOLUTIONS 

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 16, 2010

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-892 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 






















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  LINDSEY GRAHAM, South Carolina
ROLAND W. BURRIS, Illinois
EDWARD E. KAUFMAN, Delaware

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          SCOTT P. BROWN, Massachusetts
ROLAND W. BURRIS, Illinois           LINDSEY GRAHAM, South Carolina
EDWARD E. KAUFMAN, Delaware

                     Lisa M. Powell, Staff Director
                Benjamin B. Rhodeside, Legislative Aide
             Jennifer A. Hemingway, Minority Staff Director
          Thomas A. Bishop, Minority Professional Staff Member
                      Aaron H. Woolf, Chief Clerk





















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Landrieu.............................................     2

                               WITNESSES
                        Tuesday, March 16, 2010

Roque R. Gerald, Psy.D., Director District of Columbia Child and 
  Family Services Agency.........................................     4
Hon. Lee F. Satterfield, Chief Judge, Superior Court of the 
  District of Columbia...........................................     5
Judith Meltzer, Deputy Director, Center for the Study of Social 
  Policy.........................................................     7
Judith Sandalow, Executive Director, Children's Law Center.......    18
Sarah M. Ocran, Vice President, Foster Care Campaign, Young 
  Women's Project................................................    20
Dominique Jacqueline Davis, Former District of Columbia Foster 
  Youth..........................................................    22

                     Alphabetical List of Witnesses

Davis, Dominique Jacqueline:
    Testimony....................................................    22
    Prepared statement...........................................    98
Gerald, Roque R., Psy.D.:
    Testimony....................................................     4
    Prepared statement...........................................    27
Meltzer, Judith:
    Testimony....................................................     7
    Prepared statement...........................................    63
Ocran, Sarah M.:
    Testimony....................................................    20
    Prepared statement...........................................    95
Sandalow, Judith:
    Testimony....................................................    18
    Prepared statement...........................................    72
Satterfield, Hon. Lee F.:
    Testimony....................................................     5
    Prepared statement...........................................    36

                                APPENDIX

Letter to Chief Judge Lee F. Satterfield from Nadia Moritz, 
  Executive director, Young Women's Project, dated March 26, 
  2010, referring to Sarah Ocran's testimony at the hearing......    93
Background.......................................................    99
Paul Strauss, Shadow Senator, District of Columbia, prepared 
  statement......................................................   104
Nadia Moritz, Executive Director and Tosin A. Ogunyoku, Senior 
  Program Coordiantor, Foster Care Campaign, Young Women's 
  Project, prepared statement....................................   108
Council for Court Excellence, prepared statement.................   122
Responses to questions submitted for the Record:
    Mr. Gerald...................................................   126
    Judge Satterfield............................................   142
    Ms. Meltzer..................................................   154
    Ms. Sandalow.................................................   161
    Ms. Ocran....................................................   169
    Ms. Davis....................................................   173


                    ASSESSING FOSTER CARE AND FAMILY
                      SERVICES IN THE DISTRICT OF
                   COLUMBIA: CHALLENGES AND SOLUTIONS

                              ----------                              


                        TUESDAY, MARCH 16, 2010

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Landrieu.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order. I want to welcome our 
witnesses to today's hearing, ``Assessing Foster Care and 
Family Services in the District of Columbia: Challenges and 
Solutions.'' I want to thank all of you for being here.
    I also want to recognize Senator Landrieu for her strong 
leadership on foster care and adoption issues. This hearing is 
an opportunity to examine how Congress can work together with 
the District Government, child advocates, and, most 
importantly, the families and children within the system to 
improve the foster care and adoption process in D.C. I am 
particularly interested in exploring how Congress can support 
D.C. as it strives to find a permanent, loving home for every 
child under its care.
    Almost two decades have passed since the D.C. child welfare 
system was placed under Federal court supervision. Since then, 
D.C. has made real, though uneven, progress reforming the 
system.
    I would like to commend Director Roque Gerald. He assumed 
leadership during a time of crisis, and he brought stability 
back to the agency. However, stability is not success, and 
several significant issues remain. In particular, I have three 
concerns I would like to address this afternoon.
    The first is the need for the District to set higher 
expectations for finding permanent homes for children in foster 
care. In 2009, 127 children in D.C. foster care were adopted--
only 28 percent of all D.C. foster children with the goal of 
adoption. While this number exceeded the District's target for 
the year, it is much less than previous years and it is not 
nearly good enough. Greater transparency about how these 
adoption goals are set will help us understand the challenges 
Child and Family Services Agency (CFSA) faces and how it is 
working to address them. This hearing is a good opportunity for 
CFSA to explain the process used to determine its adoption 
goals.
    Second, in order to meet higher permanency goals, CFSA must 
develop and implement a consistent approach to finding 
permanent homes for foster children. I am encouraged that CFSA 
has launched nationally recognized programs, such as the 
Permanency Opportunities Project. This high-impact team 
strategy fosters collaboration and creativity to achieve a 
better, faster, adoption process. I urge Director Gerald to 
institute a strategic plan to fully implement these best 
practice models and make sure they become a permanent part of 
CFSA operations.
    My third concern is financial management. The current 
economic recession has forced State and local governments to 
confront declining revenues as the need for assistance 
increases. Like other governments, D.C. faces significant 
spending pressures that will require difficult choices.
    At the same time, CFSA has lost tens of millions of dollars 
in Medicaid funds due to an inability to properly file claims. 
These problems are so severe that CFSA has stopped filing 
Medicaid claims altogether.
    It is critical that CFSA quickly address these issues so 
the agency has the funds it needs for the children in its care.
    It is clear that the District faces great challenges in 
improving its child welfare system. However, rather than be 
discouraged by the work remaining, I am inspired by the 
dedicated witnesses here today. I believe if we work together 
over the coming years, we will make a difference for thousands 
of D.C. children who deserve a loving and permanent home.
    I look forward to hearing from our witnesses, and I would 
like to call on Senator Landrieu for her opening statement. 
Senator Landrieu.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and thank you 
for your thoughtful opening statement on this subject and for 
your overall interest always in stepping up to try to help our 
Subcommittee, the full Committee, and Congress to be the very 
best partner we can be in many aspects of the District of 
Columbia's government, and particularly the subject that is 
before us this morning, and that is the subject of child 
welfare in the District.
    I thank you for agreeing to this hearing, and my request 
for this hearing was prompted just recently by a series of 
articles in the Washington Post. I just want to read for the 
record just a couple of short paragraphs that could cause us to 
focus on some of these areas.
    The first is from a July 20, 2009 article, the number of 
D.C. foster children, according to this article, being adopted 
is falling precipitously, frustrating child welfare advocates 
who say the city's Child and Family Services Agency is not 
doing enough to find permanent homes for the hundreds of 
children who are unlikely to be returned to their parents. Only 
68 children were adopted in the first 9 months of the 
District's current fiscal year, leaving the city unlikely to 
reach even last year's goal of 119, which was less than a 
quarter of the roughly 500 children eligible for adoption.
    Just 4 years ago, in contrast, during a major reform push, 
of which I was a part, so was the Chairman, and others, 314 
children--almost half of those who sought placement of 
adoption--were, in fact, adopted.
    Another article that appeared more recently, January 11, 
2010, by the same reporter, says that one of the problems could 
be lack of funding--maybe not the only problem--some lack of 
funding in the budget. After a year of halting Medicaid claims 
so it could straighten out its billing, D.C. Child and Family 
Services told city officials that it faces a shortfall of about 
$10 million because it had not fixed all the problems and is 
not ready to resume claiming money from Medicaid.
    As the city's child welfare agency, CFSA, investigates 
abused and neglected children, as we know, and oversees about 
2,000 children in foster care, its failings in child protection 
have been widely noted over the past decades, and its 
mismanagement of the Medicaid process has been a persistent 
problem as well. Auditors have found staggering errors and 
rejected millions in claims.
    Now, the hearing today, Mr. Chairman, is, as you stated, 
not about the financial or the audits. It is really about the 
bigger picture. I just want to recognize--I understand there 
are some financial difficulties, but what I really want to 
focus my questions and hear from our panelists--who I have all 
worked with and have a great deal of respect for--is the 
answers or explanations for some of this or comments about a 
different view if that is not your feeling at this time. And I 
just want to say, as the Chair of the Congressional Coalition 
on Adoption, how proud I am of the work of 200 Members of 
Congress, Republicans and Democrats, that really try our best 
to stay focused not just on the District of Columbia's child 
welfare system, but on systems all over the country and, in 
fact, all over the world, about trying to make sure that we 
have the very best practices in child welfare--preventing 
abandonment, reunifying families, placing children in kinship 
care, if appropriate, and then finding, of course, community 
adoptions if all else fails to provide them with the kind of 
care and support they need.
    Mr. Chairman, thank you very much. I look forward to 
hearing from our witnesses today.
    Senator Akaka. Thank you very much, Senator Landrieu.
    I want to welcome our first panel of witnesses to the 
Subcommittee: Dr. Roque Gerald, who is the Director of the D.C. 
Child and Family Services Agency; Hon. Lee Satterfield, Chief 
Judge of the Superior Court of the District of Columbia; and 
Judith Meltzer, the Deputy Director of the Center for the Study 
of Social Policy.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses, so I ask you to please stand and raise your 
right hand. Do you solemnly swear that the statement and 
testimony you are about to give before this Subcommittee is the 
truth, the whole truth, and nothing but the truth, so help you, 
God?
    Mr. Gerald. I do.
    Judge Satterfield. I do.
    Ms. Meltzer. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses answered in the affirmative.
    Before we start, I want you to know that your full written 
statements will be part of the record, and I would like to 
remind you to please limit your oral remarks to 5 minutes. 
Director Gerald, will you please proceed with your statement?

TESTIMONY OF ROQUE R. GERALD, PSY.D.,\1\ DIRECTOR, DISTRICT OF 
           COLUMBIA CHILD AND FAMILY SERVICES AGENCY

    Mr. Gerald. Good afternoon, Chairman Akaka, Ranking Member 
Voinovich, and Members of the Subcommittee. I am Dr. Roque 
Gerald, Director of the District of Columbia's Child and Family 
Services Agency. I appreciate the opportunity to present the 
highlights of our continued child welfare reform, especially 
our all-out efforts to increase and expedite adoptions. I also 
want to point to the Director of my Youth Advisory Panel or 
Board, that is sitting right directly behind me and has joined 
me here today.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Gerald appears in the Appendix on 
page 27.
---------------------------------------------------------------------------
    In 2001, when CFSA became a cabinet-level agency, our 
overall goal was building a strong safety net. As a charter 
member of that executive team, I established a unique in-house 
clinical practice function. By 2007, the District's second 
Federal Child and Family Services Review found a strong system 
delivering improved outcomes.
    In January 2008, discovery of the tragic deaths of the four 
District girls at the hands of their mother shocked and 
saddened the community. Mirroring a nationwide trend following 
high-profile child tragedies, calls to our hotline skyrocketed. 
In response, Mayor Fenty mobilized his administration to assist 
CFSA.
    When I stepped in as the director in July 2008, CFSA was 
facing a daunting backlog of over 1,700 investigations. By the 
end of 2008, we had reduced the backlog to less than 100 and 
instituted numerous safety reforms. The backlog has remained in 
the range of 20 to 40 cases ever since, the lowest level for 
the longest period in the agency's history.
    Using the momentum of these achievements, the next area for 
CFSA focus was permanency. By definition, reunification with 
birth parents, guardianship, and adoption are all options as 
long as the outcome is a safe, nurturing, and permanent home. 
At the very least, every older youth will exit with a lifelong 
connection to a stable, caring adult.
    Innovative strategies are succeeding on two fronts. In 
2009, the District reversed a 4-year decline in adoptions, 
exceeding the target of 125 with 128 adoptions, a 25-percent 
increase over 2008. At the beginning of last year, CFSA drew on 
input from the national experts to initiate the proven best 
practice of high-impact teams. Six months later, I described it 
to the Washington Post for their article in July. One set of 
teams is composed of CFSA's adoption specialists. Another is a 
public-private partnership with the local nonprofit adoptions 
together. All teams focused on finding homes for children and 
youth with a goal of adoption and moving those into pre-
adoptive placements to finalization promptly. Main features of 
this approach include multi-agency teaming, barrier busting, 
and thinking outside of the box to find permanent homes.
    The second front in our push for permanence is older youth. 
In 2009, CFSA ended the automatic assignment of the Alternative 
Plan Permanent Living Arrangement (APPLA), as a goal for older 
youth. In a little over a year, youth with the goal dropped 
from 850 to 678.
    In the first half of 2009, CFSA reviewed the cases of 722 
youth destined to age out and to explore their opportunities 
for permanence. We found 80 percent already had an established 
or potential lifelong connection, and social workers are now 
using this information to rekindle or create legal permanence 
or lasting connections for these youths.
    While making important strides, CFSA faces several 
challenges in maximizing our push for permanence. Among these 
are: Raising public awareness about opportunities to adopt from 
the public system or to provide foster care; doing more to 
build lifelong relationships for older youth in care for whom 
legal permanence is not possible; providing better preparation 
of children, youth, and adults for the transition to adoptive 
family life; implementing a differential response approach to 
reports of child neglect.
    In conclusion, the District of Columbia assures you that we 
are building on recent successes to ensure every child and 
youth in the system has a clear pathway to permanence.
    Thank you for your attention and for your interest in the 
District's children, youth, and families.
    Senator Akaka. Thank you very much, Dr. Gerald.
    And now we will hear the testimony of Chief Judge 
Satterfield.

   TESTIMONY OF THE HON. LEE F. SATTERFIELD,\1\ CHIEF JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Judge Satterfield. Good afternoon, Chairman Akaka, Senator 
Landrieu, and Subcommittee staff. Thank you for convening this 
hearing to talk about foster care and family services here in 
the District. I am joined here by the judicial leadership in 
our Family Court, Presiding Judge William Jackson and Deputy 
Presiding Judge Zoe Bush, as well as the Director of our Family 
Court, Dianne King.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Satterfield appears in the 
Appendix on page 36.
---------------------------------------------------------------------------
    We know from previous work with the Congress during the 
enactment of the Family Court Act how interested you are in 
increasing the number of children achieving permanency in the 
District of Columbia, and we share your commitment to this 
crucial goal. With your support and guidance, we have been able 
to make many improvements in the manner that we help children 
and families in our court system here in the District, and many 
of those initiatives I have set forth in my written testimony, 
so I will not talk about them now. However, I am sure you will 
agree that more work is necessary not only to help foster 
children achieve permanency quicker, but also to prepare many 
of our children for life after they leave the child welfare 
system.
    Dr. Gerald talked about what permanency is. I will not go 
into that. But this past year, the Court has worked 
collaboratively with the agency to increase the number of 
children achieving permanency through adoption, a significant 
increase from the previous year. This is great news, but there 
are still a few barriers that prevent more children from 
achieving permanency quicker. We are still meeting the 
challenge of the Interstate Compact for the Placement of 
Children (ICPC) that continues to slow the court's ability to 
permanently place children in homes of people in neighboring 
jurisdictions. In addition, the concern that many foster 
parents have about available resources after adoption is 
another area that slows permanency through adoption. I know 
that the D.C. City Council is attempting to address some of 
these concerns by considering proposed legislation to increase 
the eligible age for an adoption subsidy to 21 years of age.
    But the more resources that we can make available for 
adoptive parents, such as in-home therapy or, when appropriate, 
short-term residential care, the less concern many potential 
adoptive parents will have about providing permanent homes for 
more children in our foster care system.
    And even though I think we all agree that children should 
be raised in a loving, permanent home, and we will continue to 
work as hard as we can to make that happen for most children, 
the reality is that many may not have this opportunity.
    Each year in the District, an average of 25 percent of the 
referrals of children that we get in our Family Court in the 
area of neglect and abuse involve children 13 years and older. 
Therefore, we have a significant number of children entering 
the child welfare system each year who, due to their age, 
present challenges to achieving permanency by adoption or 
guardianship. This is especially true because DC law provides 
that once the child turns 14, he or she can choose not to 
consent to adoption. So for these reasons, sometimes neither 
adoption nor reunification with the birth parent may be in the 
best interest of the child, and we have to often prepare the 
child or the children for life when they reach the statutory 
age for independence, which is 21 years old here in the 
District.
    Over the past years, we have focused many court initiatives 
on preparing youth to achieve permanency through independence. 
These programs have helped older youth make decisions and plans 
for their future and involve coordination of a full range of 
services necessary for their success.
    But I think any resources that the Congress can continue to 
provide to help older youth, particularly in the area of 
housing and employment, can have a huge benefit to the children 
here in the District and, in fact, the children nationwide. We 
all know that children in our neglect system are at greater 
risk moving to our juvenile justice system, somewhere we do not 
want them to be, as well as those children in the juvenile 
justice system are at greater risk of moving to our criminal 
justice system. So our investment in foster children who will 
not have the benefit of being raised in loving, permanent homes 
is an investment that will result in many positive returns for 
our children, our community, and our Nation.
    Thank you for inviting me to testify today. I would be 
pleased to answer any questions you may have.
    Senator Akaka. Thank you very much, Judge Satterfield. Now 
we will hear from Judith Meltzer. Would you please proceed?

TESTIMONY OF JUDITH MELTZER,\1\ DEPUTY DIRECTOR, CENTER FOR THE 
                     STUDY OF SOCIAL POLICY

    Ms. Meltzer. Good afternoon, Chairman Akaka, Senator 
Landrieu, and staff. I am Judith Meltzer, the Deputy Director 
of the Center for the Study of Social Policy, and I serve as 
the Federal court-appointed monitor under LaShawn A. vs. Fenty.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Meltzer appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    I have the advantage of working closely with child welfare 
systems across the country, including the District of Columbia, 
where there remain significant challenges to ensuring that all 
children and youth grow up in safe and stable families.
    All children--regardless of age, race, or ethnicity--need 
and deserve a safe and nurturing family to protect and guide 
them. Within the child welfare field, we call this permanency, 
and it can be achieved either through safe family reunification 
as the preferred choice, but also through kinship/guardianship 
and adoption.
    Research clearly shows that children who exit foster care 
to a permanent family do better than those who exit foster care 
to emancipation without family connections. The results for 
those who do not achieve permanency are often bleak.
    Despite improvements in child welfare services in the 
District of Columbia and at the Child and Family Services 
Agency in the last decade, reducing the length of stay in 
foster care and in ensuring a permanent home for every child 
has not been achieved. The data show painfully that too many 
children remain in the custody of the District far too long. 
The District does not meet the Federal standards on any of the 
permanency measures used to evaluate performance.
    While many children leaving foster care return to their 
families, many exit without a permanent home, and this has 
remained virtually unchanged since 2005. In fact, the number of 
children adopted and/or who achieve guardianship has 
significantly declined, as was discussed in your opening 
statement.
    Also, 80 percent of those adopted in 2009 were under the 
age of 12, and the permanency practice with older youth is 
particularly deficient. Even when you look at the combined 
total of exits to adoption and guardianship, the performance 
remains low and absolutely poor for older children and youth.
    Let me turn quickly to barriers and recommendations. 
Overall, there is a lack of citywide urgency to produce 
permanency results for all children, and especially older 
children. Since 2006, many ``best practice'' permanency 
initiatives and projects have been instituted, but none have 
been followed through to completion. While all of the 
stakeholders--CFSA, their private agency partners, the Family 
Court, children's legal guardians--have adopted the language of 
permanency, they do not always agree on how long it should 
take, to whom it applies, nor do they have clear protocols, 
common timeframes for case processing, and consistent ways to 
measure progress.
    First, CFSA should clearly articulate its organizational 
structure and internal policies and protocols for its workers 
and for the private agencies. Clear policy on adoption and 
guardianship should be aligned with CFSA's practice model and 
the rest of the agency's work.
    Second, CFSA staff, the private agency providers, and legal 
partners need to develop and act on shared operational 
protocols for tracking and achieving permanency. This means 
they need to jointly set ambitious outcomes for children's 
permanency, consistently track progress, and widely share the 
results with the public.
    Third, the District should extend adoption and guardianship 
subsidies to families until a child turns age 21 in accordance 
with the option available under the Federal Fostering 
Connections Act. Legislation to extend subsidies to age 21 in 
the District is now pending before the District Council and 
should be approved.
    As the Subcommittee is aware, Medicaid reimbursement issues 
are problematic for CFSA. In April 2009, the District stopped 
claiming for Medicaid reimbursement and shifted a portion of 
the Medicaid claiming to Title IV-E. Almost a year later, the 
District is still in the early stages of engaging a consultant 
with a goal of reinstituting Medicaid claiming. CFSA should be 
held accountable to immediately engage and use high-quality 
expert assistance to quickly resolve their Medicaid and Title 
IV-E claiming issues.
    A final recommendation involves Federal oversight. 
Currently, the data collected at the Federal level is 
insufficient to track outcomes for children over time, and the 
performance review process does not allow for comparison 
between States. Based on this, we believe that the Adoption and 
Foster Care Analysis and Reporting System (AFCARs), needs to be 
constructed to measure longitudinal performance and that the 
Child and Family Service Reviews (CFSRs), should also be 
reviewed to determine how better to assess a child and family's 
well-being.
    In conclusion, in the past decade the District of Columbia 
has moved, sometimes with fits and starts, and often without 
sufficiently institutionalizing short-term gains, towards 
establishing a child welfare system that can consistently 
provide for children's safety, well-being, and permanency. We 
cannot wait another decade and permit hundreds of additional 
children to grow up rootless in foster care, leaving the system 
at age 18 or 21 without the support of a family and without the 
tools to become successful adults.
    I appreciate the Subcommittee's interest and continued 
support for the District's work to fix these problems. Thank 
you.
    Senator Akaka. Thank you very much for your statements.
    Ms. Meltzer, as Deputy Director of the Center for the Study 
of Social Policy, you have expressed concern that CFSA does not 
have a consistent permanency practice model and adoption policy 
for finding children permanent homes. Please describe why a 
model and policy is needed and discuss what it must contain to 
be effective.
    Ms. Meltzer. Thank you. That is a very important and a very 
big question. By a permanency practice model, I mean that there 
needs to be a set of written policies and practice guidance, 
including training and supervision, that are clear and 
understood by the multiple actors that are involved in making 
sure a child ends up in a permanent home.
    Everyone, including the caseworker at CFSA, the Office of 
Attorney General attorney, the child's parents and/or 
relatives, the Guardian Ad Litem (GAL), the private agency 
workers, and the foster parents--they must understand the 
values that govern agency practice; the protocols that are 
used, and the time frames that are expected to get a child to 
permanency. And each of them have to be accountable within the 
timeframes for producing the end result.
    For example, under current practice, about half of the 
children in the District's foster care system are case managed 
by private agencies that are under contract, and we see cases 
frequently where there is confusion about who is ``on first'' 
to move the case forward to permanency. This is particularly 
true when an adoptive family has to be recruited. Also we see 
the lack of the consistent practice in the fact that often the 
connection between the need to support foster parents and 
provide them with the services that they need is not 
conceptually viewed as linked to the outcome of permanency at 
the other end.
    Senator Akaka. Dr. Gerald, I commend you for starting 
promising programs and strategies, such as the Permanency 
Opportunities Project. As Director of D.C. Child and Family 
Services Agency, you have done a good job in this respect.
    Do you have a strategic plan to fully implement these best 
practice models so they become a part of permanent operations?
    Mr. Gerald. Yes, Chairman Akaka, we do. As you are aware 
and as has been testified, the District for many years started 
initiatives that never were completed. I have called those the 
concept cars that have never gone to production. And the goal 
of this process was to be able to really build onto successes 
that we learnt through the stabilization of the agency and 
spread that outward.
    So while GALs and the court and others have not with us 
formulated that overall umbrella policy, as has been 
identified, we believe that we now have the solid base through 
our practice model, which is the first time the agency has a 
uniform guide of how we are going to approach working with 
families from beginning to end. That approach, we now have 
national experts on the ground coaching and training our 
workers, but that process has to also be spread to the next 
stage in establishing uniform expectations of our GALs, of our 
court, of our other partners in being able to practice.
    But the practice model is the core of how we are beginning 
to do that, and it is the first time the agency has undertaken 
that process in its history.
    Senator Akaka. Director Gerald, in 2009, CFSA finalized 128 
adoptions exceeding the agency's goal of 125. This was welcome 
news. However, your goal was below previous years, such as 
2005, when 272 adoptions were completed. Will you please 
discuss why adoptions have dropped in recent years and how CFSA 
sets its annual adoption goals?
    Mr. Gerald. There are two or three elements that I think 
are important in the discussion, not just the raw number of 
adoptions but the percentage of adoptions to the entire 
population, which is one that we have to be able to really 
focus on because the foster care population continues to 
diminish, and the number of children with the goal of adoption 
continues to diminish. So when you compare the number of 
adoptions, as has been described, to the population that it was 
being applied to, there is still much to be improved, but a 
different picture.
    I think clearly we have to reverse the approach that the 
agency had been having over the years where there had been a 
real decline in permanence for youth. That is undisputed. We 
did that coming out of stabilizing the agency, so we were not 
fully operational and institutionalized in the kinds of 
approaches we were doing. We were still testing, clearly, the 
Permanency Opportunities Project, which has proved to be very 
powerful, and we see that as now establishing much more robust 
targets for us going forward.
    Senator Akaka. Director Gerald, what is the agency's 2010 
adoption goal? Do you have a strategic plan to make sure this 
goal is met?
    Mr. Gerald. Yes, we do. Our expectations clearly are to not 
only supersede the targets that we have had this year, of last 
calendar year of the 128, but also to focus critically on not 
just the numbers, but as Senator Landrieu had alluded to, this 
past Adoption Day, we had for the first time an increase in 
older youth being adopted and sibling groups being adopted.
    So the goal for us is really to improve overall the quality 
of the adoptions, not just the adoption numbers. So we are 
still modest in what we are doing in terms of adoption numbers, 
but we are trying to improve the overall outcomes. It is a 
whole lot better to have sibling groups adopted together than 
separately.
    Senator Akaka. Ms. Meltzer, do you believe the District has 
appropriate expectations for finding permanent homes for D.C. 
foster children?
    Ms. Meltzer. No. I think their expectations are too low. 
There are currently about 550 children with a goal of adoption 
in the District and approximately 700 youth who have the goal 
of Another Planned Permanent Living Arrangement (APPLA), which 
is basically long-term foster care and exit. And I think that 
the District's goals are set primarily on the basis of what 
they think they can achieve based on current performance, and 
that the District really needs to set much more ambitious goals 
that are tied to the number of waiting children. This is 
important because we are talking about people and young 
children, and the longer we wait, the bleaker their futures 
become.
    So we have advocated for the District to set more ambitious 
adoption goals and permanency goals, and then to figure out 
what it is going to take to achieve them.
    Senator Akaka. Chief Judge Satterfield, in her testimony 
Ms. Meltzer stated all stakeholders must develop a shared 
vision about the importance and urgency of permanency. Please 
describe the steps the Family Court is taking with various 
stakeholders to reach a shared agreement on the process and 
time frames for achieving permanency?
    Judge Satterfield. Thank you. I think that there have been 
significant steps taken during the last several years, 
particularly since the Family Court Act was passed, and the 
work that the Court has done with the agency. There has been a 
significant amount of collaboration, such that on at least two 
occasions national organizations have recognized the Court and 
the agency for their collaborative process and asked us to come 
out and really talk about how we get it done.
    The agency, as well as other stakeholders, have been 
meeting on the Child Welfare Leadership Team for many years to 
talk about these issues that could be barriers to permanency. 
They have come out with procedures out of those meetings for 
when to set as a goal the Alternative Planned Permanent Living 
Arrangements in an effort to avoid abusing that goal. They have 
come out with procedures for when you do not have to file a 
total physical response (TPR) because we wanted to make sure 
everybody is consistent about when one does not have to be 
filed because we want to make sure they are filed in the cases 
that they should be filed. These were all papers that have come 
out of the collaborative process that many, including Ms. 
Meltzer, were involved in with the Child Welfare Leadership 
Team, in addition to working with the Court on its model Court 
initiative with the National Council of Juvenile and Family 
Court Judges.
    So I think that there have been many collaborative efforts. 
I do not agree that we do not have a shared vision of where we 
need to go. I think it is just challenging because of the 
demographics and who we have coming into our system. But I do 
agree that we have to all make better efforts in getting older 
children adopted because that is the challenge that we face 
here in the District.
    Senator Akaka. Well, thank you very much for your 
testimony. Your testimonies have been valuable to the 
Subcommittee.
    I will not be able to stay for the entire hearing, so 
Senator Landrieu will take the gavel for the rest of the 
hearing. So let me turn it over to Senator Landrieu.
    Senator Landrieu [presiding]. Thank you, Mr. Chairman. And, 
again, thank you for calling the hearing and for your 
leadership on this important subject.
    Let me begin, Ms. Meltzer, asking you if, in your opinion, 
does the leadership of the District of Columbia know the 
ranking of this child welfare system in the sense that the 
information is presented in a way that helps the leadership of 
the District understand how this particular child welfare 
system is ranked in the country. Are they in the top one-third, 
the middle third, or the lowest, or the last? You were 
referring in your testimony, the reason I ask, that you think 
the data has to be improved. Could you comment about that? 
Because sometimes when it is not clear to people how dire the 
situation is, it prevents them from acting with the urgency 
that may be necessary.
    So could you give just a comment about the way this data is 
reported amongst all child welfare systems in the country, 
which would be 50 States plus.
    Ms. Meltzer. It is very difficult to have true and 
objective State-by-State comparisons. Each State's laws are 
different. The systems are different. People define things 
slightly differently.
    The best way one gets to see a State-by-State comparison 
these days is through the Child and Family Service Reviews and 
the outcomes that are established by the Federal Government. 
The Federal standards are primarily medians and States can see 
where they are in relation to the permanency measures that have 
been set by the Child and Family Services Review.
    The District leadership at the Child and Family Services 
Agency looks at that data and knows where they are in relation 
to the national standards. And, again, on those permanency 
measures, they are below the national standards.
    The collective leadership does look at data and a lot of 
process data is measured. Some of the process measurements have 
come about through the lawsuit. Some of them measure timeframes 
to permanency and the District does that. But there has been, 
in my opinion, not a lot of collective understanding of the 
fact that there are today 500 children awaiting adoption and 
700 youth that do not have prospects for permanent connections.
    I want to also, if I can, comment on something mentioned 
previously. I agree with Judge Satterfield that it is not so 
much that the vision is missing. I do think all of the 
leadership wants and has a vision that children need homes. 
What they do not have in place are the protocols and the 
standards to measure themselves consistently about the work to 
achieve this vision.
    Senator Landrieu. Well, it gets me back to my question. I 
do not want to dwell too much on this, but when I said does the 
District know how it ranks according to other States, it would 
also be States/metropolitan areas that are similar, because you 
can measure the District basically to other metropolitan areas 
that have 600,000-plus, 700,000 people, the same demographics, 
the same income levels. And I think as a person helping to try 
to lead this reform effort nationally, it really helps when you 
have got the data in the right ways so that you can really 
understand and either stop fooling yourself about what you are 
or are not doing and you can see, or take credit for what you 
are doing. And you could see how whatever your position is on 
the work of the reform of the school system in the District, a 
lot of that was prompted by pretty accurate data drilled down 
by local committees and some committees here in Congress about 
actually how much money was being spent per child in the 
District of Columbia for education and what were those 
outcomes, even when compared not to States but to similar 
demographics in cities in America where the District and the 
leadership had to really understand we are missing the mark, we 
have to change.
    Now, this is very difficult. We do this work all over the 
country. Is there anything specific, before I move on to my 
other question, that you could recommend in terms of getting 
the data clearer in a way that could maybe prompt more 
efficient or effective action? I mean, if you think the vision 
is shared, then maybe it is the data we are not clear about.
    Ms. Meltzer. I think that the systems have to develop 
benchmarks and expected timeframes and measure the timeframes 
from when a child comes into care to when they achieve 
permanency. They need to consistently look at the data and set 
up the mechanisms to consistently review children's cases 
against those timeframes and benchmarks.
    One of the things that Director Gerald alluded to was that 
CFSA received help from the Annie S. Casey Foundation which 
looked at the District's data about the number of children that 
have the APPLA goal as compared to cities and urban areas in 
other areas of the country. They looked at DC in relation to 
New York and Philadelphia and some other cities. The data were 
powerful for the agency, in understanding how significantly 
their practice was out of line.
    I also think that sometimes we measure the wrong things. 
For example, we measure whether the agency files for 
Termination of Parental Rights (TPRs) in those cases where they 
should file for TPRs quickly, but we have not been measuring 
how quickly the TPRs get resolved and what the outcome is.
    So I think it is worth looking at the measurement and 
making sure that we are measuring the right things and that the 
data are available on a regular basis to the public.
    Senator Landrieu. OK. Judge Satterfield, we have worked 
together for many years, and I am extremely impressed with your 
general compassion on this issue and your attention to it, many 
of the court appearances that we have made together and 
appearances on this issue in the District, and you have always 
stepped up so well.
    Are there two or three things that maybe the city or the 
Congress could be doing in terms of either resources to you or 
reductions in regulations or additional regulations that would 
help the courts operate more efficiently? Because I really 
believe meeting many of the judges here that you all are--I 
mean, in some ways, in my view, advanced in the way of your 
understanding and appreciation and your willingness to take on 
this issue. But it is either a resource or a disconnect. I do 
not know if you want to say a word about that. And then, Ms. 
Meltzer, I am going to ask you from your perspective, is it 
something that we could be more attentive to at the court 
system to help them process this more quickly?
    Judge Satterfield. I have to say that you never want to 
pass up an opportunity to ask for more resources, but you all 
have been very generous and we are very grateful for the 
resources that Congress has given us. And while we always can 
use additional resources, I think we have the resources to 
continue to make a difference in the manner in which we handle 
these cases.
    Ms. Meltzer talked about data on termination of parental 
rights because the thought being that if the rights are 
terminated, the child is in a better position to be adopted. We 
are tracking that better now. I issued an administrative order 
back in October of last year setting performance standards to 
ensure that these motions, these hearings, are handled 
expeditiously, and we are going to be tracking that even more 
as we go into the future because, early on in the Family Court 
Act or right after the Family Court Act was passed, there was a 
significant increase in us handling termination of parental 
rights and that dropped, and we have addressed that drop, and 
we are back to increasing to make sure that we handle them in a 
more expeditious fashion.
    So we are able to do that, and we are going to continue to 
do that.
    Senator Landrieu. OK. Do the judges have overall authority, 
just in your given authority, or do you need any extra to 
determine if social workers are either consistently not 
appearing in your court or not stepping up when they should? 
What is the authority that you have over the operational 
professionals, whether they be full-time with the department or 
contract? Because I am going to ask you all how many contract 
employees we have and then how many full-time employees. But do 
the judges give a report about the X number of professionals 
that actually show up and do their work, the X number of 
professionals that might not? Help me understand that a little 
bit.
    Judge Satterfield. I have not heard that that is a problem 
with professionals not showing up in trying to do their jobs. I 
know Judge Jackson, the presiding judge of our Family Court, 
meets monthly with Dr. Gerald, and they can talk about and work 
on those systemic issues. If he has a problem with how we are 
processing things, he can be frank and tell us. If we have a 
problem with what they are doing, we can be frank and tell him.
    However, we do have the authority under D.C. law to order 
services, and the agency that we hold accountable is CFSA even 
if they contract with another agency, because they are the 
responsible government entity that----
    Senator Landrieu. But when you order them to do it, they 
say they do not have the resources to do it, or no?
    Judge Satterfield. Well, usually, in most instances we are 
in agreement with what services are needed. In some instances 
where we are not in agreement and the Court orders the service, 
the agency does not necessarily like the fact that we order 
something that they do not agree with, but they comply. I have 
not had and do not recall--and Judge Jackson can let me know--
instances in the recent past where more action needed to be 
taken. I do not think that is a problem. The agency is working 
hard to get these things done. They are showing up. They are 
producing their reports. And in most instances--although I am 
sure you can find some instances in which it is not happening, 
but in most instances, I think that is working well.
    I go back to that we just have to find better strategies 
for our older kids, and we have to look into what other 
jurisdictions are doing, because we have a significant amount 
of referrals of older kids coming in. And I think that you saw 
a lot of adoptions early on after the Family Court Act because 
we were working to get some of that backlog out that had built 
up. And so there was that big push, and so you saw a lot of 
adoptions during that time. Things kind of evened out, and now 
we have to not just sit and just relax on that. We have to 
start up again to make sure that we can go back to where we 
are.
    But in terms of certain kids of certain ages, those kids 
were being adopted or going into guardianship. Our issue, in my 
view, is that we have to continue to strive to find placements 
for the older kids.
    Senator Landrieu. OK. Dr. Gerald, let me ask you, describe 
your agency in terms of your total budget. What percentage of 
it is taken up by salaried full-time personnel that work for 
you to accomplish this mission? And what percentage of it is in 
contractors?
    Mr. Gerald. Essentially, 80 percent or more of our budget 
goes directly to the services of children, and that is in two 
forms: About 50 percent of our cases are case-managed by 
private agencies, both in the District and in Maryland; but the 
budget sustains direct services to those kids.
    Senator Landrieu. But 50 percent of that work is carried 
out by contractors and 50 percent of the work you think by in-
house personnel?
    Mr. Gerald. Of the out-of-home cases, just over 50 percent 
is by the private contracted providers, unlike in most other 
States, Florida has it almost 100 percent.
    Also the agency has several other functions. Those kids who 
are prevented from coming into the system, those cases that are 
in-home cases that we do not want to penetrate further and we 
want to provide the services in the home to prevent them from 
coming; and then our collaboratives, which provide preventive 
services for cases not being able to hit the agency.
    So the budget really is focused in that sense primarily in 
those three arenas, ensuring that kids that come in we can get 
out as quickly as possible.
    Senator Landrieu. I know this is difficult, but many of the 
foster care children that I have gotten to know complain 
bitterly that every time they look up, there is a new person 
trying to help their situation, because they seem to get passed 
on, like if you work with one caseworker if you are going to be 
reunited. Then you have to work with another caseworker if 
reunification is not possible. And then you work with another 
agency, if permanency planning or adoption is not possible.
    Is that the way you are organized conceptually or you are 
organized like we have tried to get the courts to organize, one 
judge, one family? Are you organized like one caseworker or one 
person per child? Or are you organized in a way that has them 
change depending on what their status is that month or that 
year?
    Mr. Gerald. I think that is a great question, and while two 
elements impact the consistency of one person with that child--
one is retention of social workers, which we have worked hard 
to be able to do, but the other is what you have described.
    We now more than ever have the ability--have the 
organization where it is a worker working with that child from 
start to finish. We are not perfectly set there, but that is 
part of the reorganization we did around permanency. The 
Permanency Opportunities Project provides an overall umbrella 
to both the private and the public sector to ensure that they 
are barrier busting where they need to and providing technical 
assistance to the front line social worker carrying the case. 
In the past, the adoption or permanency workers used to carry 
cases. We have been moving away from that.
    We did the same thing with our Office of Youth Development. 
In the past, when the children became APPLA, they would get 
another social worker, and they would be in that arrangement. 
And the goal, again, was to move away from that arrangement and 
to develop them to be youth development specialists providing 
support across the realm to all social workers.
    Senator Landrieu. Well, it is really good to hear that 
because the best practice models that are developing are all 
focused in that way to try to have the most consistency for 
these young people who have already enough disruption, in large 
measure no fault of their own, and they have already been 
disrupted in so many ways to try to keep them as consistently 
helped and supported with familiar faces over the longest 
period of time because you get to know the child and children 
and sibling groups, you get to know the family situation, 
either its promise for repair and unification, or it is fairly 
clear over time that possibility is not going to happen and in 
the course of that can identify very common-sense potential 
solutions to that difficulty, like an aunt or a godmother or a 
grandmother or a neighbor or a teacher that could step in and 
provide that permanency.
    I think when you switch workers, you just lose so much of 
that. The children get frustrated, and the older they get, the 
angrier they get, and it is just one thing--but let me show you 
something else. I went on the Website this morning, and I have 
to say, unfortunately, I was disappointed in what I saw. This 
is your Website, and I am sorry it is not bigger for anyone to 
really see. But you can go and pull up your Website. If 
somebody in the District went on your Website this morning to 
try to become an adoptive foster care parent, it looks so 
boring and uninviting and complicated. I spent a few minutes 
going around and it just did not strike me--as an adoptive mom 
who has already adopted two children, I have been through the 
process.
    I want to show you the Massachusetts site. Now, you cannot 
really tell the difference because this looks a little more 
boring, that looks a little more exciting. But what is 
different is when you hit ``About Our Children,'' what it says, 
or when you hit ``Adoption Facts'' or ``Adopting,'' there are 
actual pictures of children waiting to be adopted that come up, 
which is done by a great organization--I think you have 
probably heard of it--the Gallery of Hearts program where 
volunteer photographers have gone out and taken the most 
beautiful pictures of children that are in the foster care 
system, and they are actually gorgeous pictures of these 
children, because sometimes we communicate to people in ways 
that I try constantly to get over and better, that these 
children, while they may have had difficulty, are really 
extraordinarily promising young people. And we could not find 
any of the pictures.
    Now, maybe I was looking in the wrong place, so do you have 
them?
    Mr. Gerald. For me, this is one of the joys that I had this 
year of the progress we have made. We do have an adoption 
Website that--adoptusdc.org--but we are also in the midst right 
now of totally revamping our official Website that is 
including--for the first time we have asked a lot of our 
advocates for input of what would make the Website much more 
readable, attractive, and informative.
    Senator Landrieu. Well, I cannot impress upon you how 
important I think that is because people today, they just 
simply function on the Internet. When people want to buy, find, 
inquire about anything, more and more and more, over broad 
swaths of the population, from poor to rich, of all racial 
backgrounds, they hit the Internet. And if somebody says, ``I 
read this article, I would really like to be a foster care 
parent,'' they go and they try to find information. It has got 
to be clear, it has got to be compelling, because the need is 
so great. And I want those listening to go to this Website. 
This is just one. Maybe there are others that are better. Maybe 
this is not the best. But I thought it was pretty good. It is 
the Massachusetts Website. They had pictures of the children, 
sibling groups, a little description of the child. Each child 
had a certain registration number and a caseworker. If you 
wanted information, you could specifically call the caseworker, 
so it was very clear that they were pretty organized.
    Now, I am going to do, just for my own--I am going to check 
on a lot of Websites around the country because we have spent 
literally, from Congress, millions and millions of dollars 
trying to get technology on the side of the kids, on their 
side, and giving them an opportunity, respectfully and 
appropriately, to let their stories be told and how much they 
want to be a valuable member of society and give them a chance.
    So I cannot urge you enough, and----
    Mr. Gerald. And I will make sure that we forward you our 
Website as well and look forward to getting any comments 
regarding--and it is adoptdckids.org.
    Senator Landrieu. OK. And I have some other questions. I 
will just have to submit them for the record because I would 
like to hear from our second panel. So is there anything that 
you want to add, Ms. Meltzer?
    Ms. Meltzer. I just wanted to respond to the question on 
what Congress might do.
    Senator Landrieu. Go ahead.
    Ms. Meltzer. My suggestion comes from the comment by Judge 
Satterfield that one of the barriers for foster parents who are 
potentially interested in adopting is the fear about the loss 
of services. Continued and expanded investment in the 
availability of mental health and support services to foster 
parents after adoption and the availability of post-adoption 
supports is something very concrete that could be supported.
    Senator Landrieu. It is a real barrier, and everyone 
listening should know. If you are in foster care, you get 
financial support. And if that same family wanted to adopt that 
same child, providing the same love and support, the minute 
they are adopted they lose that support, generally.
    We are very interested in getting legislation passed here--
I am working closely with Senator Grassley on this--to have 
basically the funding track the child, basically under the 
direction, theoretically, of the courts. So when the court is 
stepping in to make final decisions about either reunification, 
permanency, adoption, or guardianship, that the money in the 
system--which is significant; I believe it is $8 billion in the 
Federal system to support not just the District but all of the 
communities in the country--$8 billion. It is not pocket 
change. And if that money followed the child and the best 
decisions of the professionals on the ground as opposed to 
supporting the system, we might get better results and 
outcomes. And we are going to fight very hard in the next year 
to do that.
    But there are some immediate issues here with the District 
that are separate and apart from the overall challenges of the 
system nationwide.
    But, Judge Satterfield, the last word to you.
    Judge Satterfield. I do not have anything else to add. I 
think everything has been covered. I would just like to say to 
you that I know when we were going to have this hearing in 
February, with the snowstorm and all, but congratulations for 
that big weekend you had just before that with your brother and 
the football.
    Senator Landrieu. A big weekend with the Saints. Well, the 
city needed a lot of therapy after Hurricane Katrina, and it 
has been 5 years.
    Judge Satterfield. We were all rooting for them.
    Senator Landrieu. Yes, the whole city had great therapy 
that weekend that the Saints won, so thank you very much.
    Thank you all, and we will see panel two now. And if you 
all could stay and listen to panel two.
    Judge Satterfield. I am going to stay.
    Senator Landrieu. But stay and listen to the panel, we 
would really appreciate it. And I know your times and schedules 
are tough.
    First we have Judith Sandalow, Executive Director of the 
Children's Law Center. We are very pleased to have two foster 
care children with us, former foster youth children with us: 
Sarah Ocran, Vice President of the Foster Youth Campaign, Young 
Women's Project, and Dominique Davis.
    I really appreciate these two young ladies coming to 
testify because, as I have asked, in all the work that we do, 
we always like to hear from the young people themselves. I was 
actually at Ms. Davis's adoption, and I remember her. She has 
grown quite a bit. She probably does not remember me, but I was 
there and remember that adoption.
    Ms. Sandalow, why don't you begin with your testimony.

TESTIMONY OF JUDITH SANDALOW,\1\ EXECUTIVE DIRECTOR, CHILDREN'S 
                           LAW CENTER

    Ms. Sandalow. Thank you. Good afternoon, Senator Landrieu. 
I am Judith Sandalow, the Executive Director of Children's Law 
Center, which, as you know, is the largest nonprofit legal 
services organization in the District of Columbia, and it is 
the only organization devoted to a full spectrum of children's 
legal issues. Every year, Children's Law Center represents 
1,200 children and families, including 500 children in the 
foster care system and several hundred foster parents and 
relatives of children in foster care. We partner with law firms 
from all over the city to provide lawyers to foster parents, 
for example, to Dominique's foster parents so that she could 
adopt her.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Sandalow appears in the Appendix 
on page 72.
---------------------------------------------------------------------------
    Any serious effort to fix D.C.'s child welfare system--and 
to ensure that children leave foster care to legally permanent 
families--begins with preventing abuse and neglect, moves on to 
intervening wisely when abuse or neglect occurs, and continues 
through several critical stages, hopefully ending with 
reunification, adoption, or guardianship.
    Although there is good news to report about the District's 
progress at some of these stages, as you know, serious problems 
still remain. These problems result in the large number of 
District children who are growing up in foster care. In short, 
too little abuse and neglect is prevented, too many removal 
decisions are made poorly, too few foster children live with 
their relatives, the placement array, the foster parent array, 
for children in foster care is limited, efforts to ensure 
children's well-being while in care are too weak, and because 
of all of this, permanency occurs way too infrequently.
    My written testimony details CFSA's performance at each 
critical stage, but today I want to focus on efforts to help 
foster children who cannot return to their birth parents and 
who need new legally permanent families. I want to start with 
guardianship because that is something which Congress can play 
a role in.
    The District of Columbia deserves extraordinary credit for 
being one of the first jurisdictions to create the legal option 
of guardianship, which we did back in 2001. Children's Law 
Center is proud of our role in drafting that legislation. It 
has allowed hundreds of children to leave foster care to 
permanent families.
    The Federal Government, through your work in its 2008 
legislation, Fostering Connections, also recognized the value 
of guardianship. In fact, just last month, the Department of 
Health and Human Services (HHS) issued new guidance making 
Fostering Connections funds available for guardianships entered 
into before Fostering Connections took effect, which we are 
very pleased about.
    We hope that HHS will also move quickly to define the word 
``relative'' within the statute. This definition matters 
because a step-grandparent, for example, or the father of a 
child's half-sibling can have a familial relationship which 
should be recognized for the purposes of receiving a 
guardianship subsidy. Congressional support for defining the 
term ``relative'' broadly would help more children move into 
legally permanent homes.
    I also want to address adoption. You have heard testimony 
about the increased number of adoptions between 2008 and 2009, 
as well as the historical downward trend over the past several 
years. What I think is important is that we understand from Dr. 
Gerald that much of the recent increase resulted from removing 
such administrative barriers as CFSA social workers completing 
final adoption reports more quickly. Making the bureaucracy 
work more efficiently is a significant accomplishment, and I 
think you heard that when the Family Court first came into 
effect, that was one of the reasons why we were able to move so 
many children out. But now we need to address the deeper 
problems, the really serious impediments to adoption more than 
the bureaucracy, and I think that is why you are holding this 
hearing.
    The good news is that I think the District is well on its 
way to addressing the most significant barrier: The disparity 
between our foster payments and our adoption and guardianship 
subsidies. As you know, the D.C. Council held a hearing in 
early March on legislation which includes provisions extending 
adoption and guardianship subsidies to age 21 and also allowing 
guardianship subsidies to be granted to non-kin. Not only is 
this good for children, but the District's Chief Financial 
Officer, whose fiscal impact studies are like the District 
equivalent to the Congressional Budget Office, has concluded 
that by moving children out of foster care, these subsidy 
changes will result in $3.9 million in savings to the 
District--obviously money that can then be turned around to use 
to help more children get out of foster care and into adoptive 
homes.
    Now I would say that CFSA has to turn to the District's 
second biggest barrier to permanency: The failure to place 
children with their extended family. D.C. children in kinship 
care are more than 30 percent more likely to leave foster care 
to a permanent family than children living in other placements. 
Yet D.C. is far behind the national average of 24 percent of 
foster children living with kin. At the end of this past year, 
only 15 percent of children lived in kinship foster care.
    CFSA should begin to address this problem with better 
implementation of the tools Congress provided through Fostering 
Connections.
    First, CFSA must implement a policy, as Fostering 
Connections permits, to make clear what licensing rules CFSA 
will waive for kin. Many relatives that we work with are 
dissuaded from becoming kinship caregivers by the complex 
licensing process.
    Second, CFSA should more aggressively identify potential 
kinship placements. All too often, the attorneys in my office 
identify kin of whom the child welfare agency is not aware. In 
a better functioning system, of course, social workers would 
know of kin before we do.
    Just to wrap up, the District's foster care system faces, 
as I think I have said, serious, complex, and truly deeply 
rooted challenges. The good news is that with concerted focus 
and cooperation among the different entities, we can make 
significant progress. The best example right now is the pending 
legislation--developed between my organization, CFSA and the 
D.C. Council--to extend and expand adoption and guardianship 
subsidies and thus help hundreds more children leave foster 
care to permanent families.
    I look forward to future successes and to this Subcommittee 
playing a constructive role in helping achieve them. Thank you.
    Senator Landrieu. Thank you, Ms. Meltzer. Ms. Ocran.

  TESTIMONY OF SARAH M. OCRAN,\1\ VICE PRESIDENT, FOSTER CARE 
                CAMPAIGN, YOUNG WOMEN'S PROJECT

    Ms. Ocran. Good afternoon, Members of the Subcommittee and 
everyone here today. My name is Sarah Ocran, and I am 18 years 
old, and I have been a part of the D.C. foster care system for 
the past 2 years. I attend Cesar Chavez Public Charter High 
School for Public Policy in Washington, DC. Today I want to 
share my story about trying to get placed in a permanent home. 
I would also like to voice my opinion about permanency and its 
connection to living in foster care.
---------------------------------------------------------------------------
    \1\ The letter from Nadia Moritz and revised prepared statement of 
Ms. Ocran appears in the Appendix on page 93 and 95 respectively.
---------------------------------------------------------------------------
    Permanency is important to me because I want to have a 
network of people that I can depend on to love me and support 
me for the rest of my life. Being in foster care has taken that 
away. For 2 years now, I have desired to live with my 
godmother--someone who is loving and supportive of me. The 
environment she creates is stress free. My godmother has a two-
bedroom apartment, and she is willing to move so that I would 
have my own room. My godmother is very stable to take care of 
me.
    The reason why I am not with my godmother is because my old 
social worker never called my godmother back, and there was a 
lot of miscommunication going on. So my godmother became very 
frustrated with the Child and Family Services Agency. Because I 
cannot live with my godmother, I do not want to go off to 
college. I want to stay local because I am scared that when I 
come back from school, I will not have a permanent place to 
call my home. When my godmother first started the process to be 
licensed so I could live with her, I was never told how long it 
would take for me to transition to her house.
    I currently live in a Supervised Independent Living 
Program. Before then I lived in a group home for about a year. 
The Independent Living Program has both pros and cons. Living 
in this Independent Living Program has made it harder for me to 
focus on important things, such as college. I want to go out of 
State to college at North Carolina A&T. But I am afraid that 
when I return from my winter break and spring break--I mean 
summer break, I will not have a permanent place to call my 
home. If I was with my godmother, I would not have to worry 
about where I would live when I come back from school breaks 
because I can count on her to support me and love me the way a 
teenager should be cared for.
    Being in the foster care system takes away the 
opportunities that I should have as a teenager. At my 
Independent Living Program, I have to come home, cook, and also 
do homework for school. I should not have to do all of this. 
When we have new girls come to our Independent Living for 
overnight stays, things tend to come up missing. Sometimes I 
hate the fact that staff are in our apartment because they try 
to tell us how to live and what to do. But at my Independence 
Living Program, I am able to have my own room to myself. Having 
my own room means a lot to me because I am able to have my 
privacy and some alone time. I also have a good deal of 
responsibility that will prepare me for the ``real world.'' I 
like living in my own apartment, but I do not have the support 
I would have if I was living with my godmother.
    I feel that my time in the system is winding down and I am 
not able to live my life the way that I want to. I am growing 
up too fast.
    During the past month, I have had some time to reflect on 
my experience in the system and trying to find a permanent 
home. I have contemplated on how my social worker and I never 
talked once about what my permanency options are and if legal 
guardianship was something that I really wanted. I waited for a 
long time to move in with my godmother. But as time passed, I 
felt as though it was not going to happen.
    I began to think what if I move in with my godmother and 
things get really bad and we get into an argument and she puts 
me out. I wondered what would happen if she would get money for 
me and then decide she would not give it to me. I also thought 
what if she puts me out because I did not fit into her 
lifestyle. All of this was going though my mind, and I did not 
know how to deal with it. I did not know how to communicate to 
my godmother to tell her exactly how I felt and what I was 
thinking. I felt like I was wasting her time by making her go 
through the licensing process for me and me not even be there 
with her. I tried to find out what was going on from my social 
worker by writing to CFSA's Office of Youth Empowerment, but my 
social worker could not even provide me with information to let 
me know why I was not approved to live with my godmother and 
why I am still not there.
    I do not communicate with my godmother that much anymore. 
Our communication has become ``sometimey'' because I feel like 
I put her through all of this to get me there and I am not even 
at her house. I also began to think maybe the judge was right 
and maybe my godmother was never a good place for me. I also 
lost hope because of the procrastination from CFSA. I think now 
that maybe my Independent Living is the best place for me 
because it feels like everyone gave up on me. I have been told 
that if I do well in my current placement that I will have my 
own apartment and it will eventually be mine. I was given the 
option to move into my apartment last month, but I did not feel 
I was ready so I said no and I stayed--because I felt like I 
was not really focusing on my grades in high school. Having my 
own apartment now sounds OK since I was scared about moving in 
with my godmother.
    The time is slowly approaching for me to age out, and I do 
not have stability. I turned 18 in December. I have less than 3 
years until I age out of the foster care system. It hurts 
because I really wanted to be with my godmother, but the system 
made it hard for me to be there.
    I have four recommendations that I would like to share with 
the Senate that could help foster youth like me.
    One, social workers should be more experienced in all 
aspects of foster care.
    Two, there should be an extension on the age when youth are 
aging out because there are youth like myself who are lost and 
do not have no one to turn to but the streets.
    Three, foster youth should have a transition center that 
will provide foster youth with resources like safety nets, 
education, and permanency that would be funded by money given 
from CFSA.
    And, last, CFSA should develop goals and better practice 
and organization for their work on permanence. If they were 
organized and tried harder, they would be able to get youth 
like me into permanent homes when they have the chance. I feel 
like I had the chance last year to make my transition, but 
because CFSA could not get their act together, that chance was 
wasted and now it is not an option anymore.
    Thank you for your time.
    Senator Landrieu. Thank you, Ms. Ocran. That was an 
excellent presentation, and thank you for your recommendations.
    Ms. Davis.

TESTIMONY OF DOMINIQUE JACQUELINE DAVIS,\1\ FORMER DISTRICT OF 
                     COLUMBIA FOSTER YOUTH

    Ms. Davis. Good morning, Senator Landrieu and Members of 
the Subcommittee. I appreciate the opportunity to talk about my 
experience of being adopted from the Child and Family Services 
Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Davis appears in the Appendix on 
page 98.
---------------------------------------------------------------------------
    My name is Dominique Davis. I am 16 years old and in the 
11th grade. I like to play softball and spend time with my 
friends and family. After high school, I would like to go to 
college and become a computer specialist and work for the FBI.
    I was in foster care since I was 4 years old. When I was 11 
years old, I went to live with my foster mom, Ms. Davis. Ms. 
Davis adopted me on November 21, 2009. Adoptions Together 
helped finalize the adoption and made sure it went smoothly.
    Having a permanent home is very important to me, especially 
changing my name so I know I belong to that family. Other kids 
should want to get adopted because everyone needs a family to 
support their future.
    I would also like to say that adults should adopt teenagers 
and not just young children because they need families too. 
Without that support, teenagers cannot succeed and sometimes 
end up on the streets.
    Thank you again for the opportunity to tell you my story. I 
would be happy to answer your questions.
    Senator Landrieu. Thank you, Ms. Davis. I really appreciate 
that. I do have just a couple of questions. You were in the 
foster care system, and you were adopted at 11, so that is, 
what, 7 years--adopted at 16. I am sorry. You were adopted at 
16, and you went into the system at 4 years of age.
    Ms. Davis. Yes.
    Senator Landrieu. So you were in the system for 12 years. 
How many homes did you have in that 12-year period? Can you 
remember? Approximately, just roughly? Is it less than three or 
more than five?
    Ms. Davis. I have been in seven homes and three group 
homes.
    Senator Landrieu. Seven homes and three groups home, so in 
10 different places in those years. And how many elementary 
schools did you go to? Can you remember?
    Ms. Davis. I think one. That is all I can remember.
    Senator Landrieu. You stayed in one elementary school. You 
stayed in the same school all through elementary school, or do 
you think you went to different ones?
    Ms. Davis. I started at Flowers Elementary School. Then I 
had to leave my foster home, and I went to a group home. Then I 
went to Rock Creek Academy where they had elementary up to, I 
think, fifth grade, and I kept moving on and on.
    Senator Landrieu. Well, one of the things that is very 
clear to me is that we have to do a much better job of trying 
to help the children that are in the system to stay at least in 
their school. And families may come and go around them and 
social workers may come and go around them, but if we could 
figure out a way to at least--I have had young people that have 
worked for me that have a 4.0 average and they went to 11 high 
schools. How they managed to keep a 4.0 average, I have 
absolutely no idea, but obviously they have a lot of talent. I 
could barely keep an A average, and I went to one high school.
    But, anyway, Judith, what do you want to add to this? And 
your testimony is very comprehensive and lengthy, but when Mr. 
Gerald testified about children moving from caseworker to 
caseworker, trying to stay with one caseworker, are you seeing 
that? Are you feeling that? Or is that still sort of planning 
in the future?
    Ms. Sandalow. I think that they are beginning to stabilize 
the social workers so that is less of a problem than it was. I 
think the biggest problem--and I think that Ms. Meltzer really 
hit the nail on the head--if there is a strategic plan, a 
vision, and a strategy, it is not public yet. And I am eager to 
have all of us who are working with children know what the plan 
is.
    We see one of the biggest problems--and I think that Ms. 
Ocran's testimony, although I do not know her personal 
situation, is right on point, which is it is very hard for 
relatives to stick to children in our system. We have a wealth 
of extended family in the District and in the neighboring 
suburbs. Really focusing at the early stages and helping 
children, especially our teenagers, connect to the relatives 
they do have in their lives and find a way to make that 
permanent I believe is one of the most important things that 
CFSA has to do right now.
    Senator Landrieu. In the law--and this is mentioned in the 
testimony--if a child is 14 or older, they have to give their 
consent for adoption. Is it also, though, required that the 
children 14 and over be asked what their preference is? Is that 
in the law? Do you know?
    Ms. Sandalow. You are testing my knowledge of the law. I do 
not know whether it is in the law.
    Senator Landrieu. I do not think so.
    Ms. Sandalow. I do know it regularly happens. But whether 
it is followed through on is another matter altogether. It 
really takes good, hard social work to make these things 
happen, and I think that is the piece that we are missing right 
now, which is there are a number of barriers to social workers 
being able to navigate the licensing regulations, know what the 
regulations are, know how to move a child successfully into a 
home.
    Senator Landrieu. Do you know what the average casework 
ratio is?
    Ms. Sandalow. It is quite low. I am sure Ms. Meltzer could 
answer that more easily than I could, but I think it is still 
about 10 or 12 kids per social worker. So I do not think it is 
caseload. I think it is the administrative barriers between 
social workers and success.
    I do want to echo one of the other big problems we have, 
and this is not CFSA's problem, but the whole city needs to 
address how we support families post-adoption and post-
guardianship and post-reunification. Dr. Gerald's hands are 
tied when it comes to mental health services, substance abuse 
treatment, homeless services, because that is outside of his 
agency. But, in fact, it is one of the biggest barriers to both 
permanency and abuse and neglect prevention that we have.
    Senator Landrieu. And if you could change that, how would 
you suggest that we do it?
    Ms. Sandalow. We have a very fragmented children's mental 
health system. I think about 10 percent of the children who 
come into foster care come into foster care because of 
behavioral problems. Obviously, we need to support those 
children and their families with appropriate mental health 
services. So the city needs to really focus on building the 
network of mental health services.
    Senator Landrieu. Ms. Ocran or Ms. Davis, do you have 
anything to add to that in any way?
    Ms. Ocran. No.
    Ms. Davis. No.
    Senator Landrieu. OK. Let me see here. Ms. Ocran, you 
commented on this, but your permanency goal was recently 
switched from guardianship to APPLA.
    Ms. Ocran. Yes.
    Senator Landrieu. Could you describe how you were notified 
that your goal was changed? Did someone come to talk to you, or 
did you receive a document in the mail? Or how did that 
actually happen?
    Ms. Ocran. Actually, we were just sitting in the courtroom, 
and the judge was just basically saying that, ``Well, she shows 
a great level of independence, she is responsible, she goes to 
school, she goes to work, and she is 18 and she don't need 
parents, so let's just change her goal.'' And everybody agreed.
    Senator Landrieu. What in your experience--you must know 
other children in the group home. What are some of the things 
that they say to you about their independent living? Are they 
excited about it? Are they nervous about it? Are they looking 
forward to it? Or could you describe a little bit about some of 
the other young people that you get to talk with?
    Ms. Ocran. Yes. Actually, I work for the Young Women's 
Project, and so being there, we work hands on with foster 
youth. But in my home, I have three other roommates, and quite 
frankly, they are scared because they do not know what is going 
to happen on their 21st birthday. They do not know what to 
expect, and most of the time they do not have a good 
relationship with their social worker. And me, speaking for 
myself as an example, I am scared because in 3 years I will be 
aging out of the system, and I do not know who I can count on. 
My godmother, she is there, but she is not there, and I do not 
know if I was to get really sick, who is going to come to the 
hospital to bring me flowers? And I cannot even rely on my 
social worker because I do not even have a social worker right 
now. She has been on leave ever since March.
    And so it is hard when you are trying to go to school and 
you are trying to make a doctor's appointment for yourself. It 
is just things that you would want a parent to be around to do. 
And like I said, I am trying to finish high school. I will be 
graduating in 3 months, and I am working on a big paper. It is 
called a thesis paper, 15 to 20 pages. And it is difficult. And 
it feels good to have a parent around to say, ``you are doing a 
good job.'' I have none of that. I go home and it is just me.
    Senator Landrieu. Well, we are going to work harder to fix 
this because there are thousands of children, maybe not as 
articulate and as smart as you, but there are thousands of 
children that are in this same situation. I will just share, 
and then we are going to call a close to the hearing in just a 
few minutes.
    There are some extraordinary mentorship programs that I am 
aware of that are happening, and I know our President and the 
First Lady are very committed to strong mentorship programs. 
And one that I am familiar with is one that the National Guard 
Youth Challenge Program works nationwide, and it is an 18-month 
residential--well, 6-month residential, 12-month follow-up. But 
in order to come into the program, which is a very interesting 
model, they take children between the ages of 16 and 18, not 
foster care children--well, foster care children are eligible, 
but this is for all children 16 to 18 having difficulty, maybe 
potential high school dropout children, not necessarily 
children like you who are writing their papers and staying in 
school. But the key is this: Every child coming to that program 
has to sign and the program has to meet an adult that is a 
responsible friend or advocate for that child, and so the young 
person goes through the program, but the adult also receives 
some sort of counseling and training opportunities so that the 
permanent match between them can stay on after the program.
    And while we would love, and our goal is, for parents to be 
connected, the fallback is a more structured mentorship with 
the right support for you and your lifetime coach or lifetime 
mentor. We are not anywhere where we need to be, but there are 
new Federal laws that are incentivizing that kind of 
mentorship. So I hope that the child welfare community could 
listen up to these models that are coming up in health, coming 
up in education, and so there can be at least a permanency with 
a lifetime connection, not just a name written on a piece of 
paper but an actual person that has been trained and signed--at 
least a general understanding that this is what they are 
committed to do at least for some period of time.
    Does anybody want to add anything that we have not covered? 
Ms. Davis, any final thoughts?
    Ms. Davis. No.
    Senator Landrieu. OK. And were you adopted with your 
siblings? Did you have siblings, brothers and sisters?
    Ms. Davis. No.
    Senator Landrieu. OK. Ms. Ocran, any closing remarks?
    Ms. Ocran. I just want to say thank you.
    Senator Landrieu. OK. Well, thank you for your courage and 
bravery and your strength. Ms. Sandalow.
    Ms. Sandalow. Thank you for drawing your attention to these 
issues. You raised the school stability issue, and I think you 
are exactly right that in order for our kids to succeed, in 
addition to permanent families, they need school stability. And 
there is good legislation on this, there is funding to help 
children go back to their school of origin. The regulations are 
very limiting, and they only refer to the first placement. And 
I think that congressional support to expand that so that if a 
child gets into a foster home and then has to move, that they 
can at least go back to that school, would be very helpful.
    Senator Landrieu. Well, I am going to push it even further 
for a certain age for the children to go to the school that 
they would like to go to and give them a lot more power to--if 
even the system is dysfunctional, a lot of these children can 
make very good decisions for themselves, and we at least owe 
them that stability while we are figuring out their own 
situation.
    But thank you very much. I appreciate it. The meeting is 
adjourned. Thank you.
    [Whereupon, at 3:41 p.m., the Subcommittee was adjourned.]


















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAIALBLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
